                           AN EARLY DEFAULTED LOAN TO
                                     (                       ]

                                 AUDIT REPORT NO. 0-10 


                                         March 23 , 2000 





The finding in this report is the conclusion of the OIG's Auditing Division based on testing of the
auditee's operations. The finding and recommendations are subject to review, management decision,
and corrective action in accordance with existing Agency procedures for follow-up and resolution.
This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector
General.
0"




                              US SMALL BUSINESS ADMINISTRATION 

                                 OFFICE OF INSPECTOR GENERAL 

                                      Washington, DC 20416 





                                                                                 AUDIT REPORT
                                                                             ISSUE DATE:
                                                                             MARCH 23 ,2000
                                                                             REPORT NUMBER: 0-10



     To:               Lavan Alexander, District Director
                        DailaslF ort Worth District Office



                       ~
                                 ().jj~
     From:   +•.,. .     ob
                        for
                                 ieabrooks, Assistant Inspector General
                                Iting

     Subject:          Audit of an Early Defaulted Loan to [   E-)( .   L\   J
            Attached is a copy of the subject audit report. The report contains one finding and
     two recommendations addressed to your office. Your comments and the comments of the
     lender have been synopsized and included in the report.

             The recommendations are subject to review and implementation of corrective
     action by your office in accordance with existing Agency procedures for follow-up.
     Please provide your management response to the recommendations using the attached
     SBA Forms 1824, Recommendation and Action Sheet.

             Any questions or discussion of the issues contained in this report should be
     directed to Garry Duncan at 202-205-7732.


     Attachment
                                                                   AUDIT OF
                             EARLY DEFAULTED LOAN TO [                                            f'J<.·   <+                J


                                                      TABLE OF CONTENTS




Background.................................................................................                                                 1

Audit Scope and Objective...............................................................                                                    1

Results of Audit. . . ... .. . . .. .. . ..... . . .. .... . . . .. .. . .. . .. . ... .. . . . . . . . . . . ... . .. .. .. .. .. ... ..   I

Finding

        Improper Lender Processing Procedures were used
         to Approve a Loan... . .. .. . .. .. .. .. . . .. .. .. .. .. .... ... . .. . . . ... . . . . . . . .. .. .. . . .. .              1

Appendices

A- Management Response
B- Lender Comments
C- Audit Report Distribution
                                     BACKGROUND

     The Small Business Administration (SBA) is authorized under section 7(a) of the
 Small Business Act to provide financial assistance to small businesses in the form of
 goverrunent-guaranteed loans. SBA guaranteed loans are made by participating lenders
 under an agreement (SBA Form 750) to originate, service, and liquidate loans in
 accordance with Administration rules and regulations.

     Heller First Capita! Corporation (lender) processed a $300,000 loan (number
(~)\....   1 for I: toll· 4 J(borrower) under Preferred Lender Program procedures.
 The loan, used to lease. (       ~)<. 4            ""J Texas, was approved and disbursed
 in ( F"'· <i :J The loan was then placed in liquidation status in June 1998.

                           AUDIT SCOPE AND OBJECTIVE

         This report provides the conclusions of an audit conducted on an SBA guaranteed
 loan. The loan was judgmentaUy selected for review as part of the Office of Inspector
 General's ongoing program to audit SBA guaranteed loans charged    off or transferred to
 liquidation within 36 months of origination (early default).

        The audit objective was to determine whether the early default was caused by 

 lender or borrower non-compliance with SBA requirements. SBA and lender loan files 

 were reviewed and district office and lender personnel were interviewed. The fieldwork 

 was accomplished between May and October 1999. The audit was conducted in 

 accordance with Government Auditing Standards. 


                                 RESULTS OF AUDIT

 FINDING       Improper Lender Processing Procedures were used 

               to Approve a Loan 


         The lender did not follow prudent lending procedures in approving and disbursing
 the loan. The borrower's equity injection and personal financial information were not
 verified and the lender could not provide support that loan proceeds were used for the
 purposes designated by the Loan Authorization Agreement. In addition, the seller's
 financial information was not validated. When these facts were brought to the lender's
 attention, SBA's obligationto honor a $204,866 guarantee on this loan was relieved.

 The borrower's equity injection

         The lender did not comply with the Loan Authorization Agreement to obtain
 evidence that the borrower made the required equity injection. The agreement stated that
 prior to loan disbursement, the lender must have evidence that the borrower injected
 $130,000 into the business. The lender acknowledged that the borrower's capital
 injection had not been verified.
The borrower's personal financial statements

       The lender did not verify infonnation submitted on personal financial statements
submitted by the borrower as required by SOP 50 103. The lender was responsible for
reviewing the financial history of the borrower in order to assess the applicant's
repayment ability or potential to repay the SSA loan. Sy not assuring the accuracy of the
borrower's financial infonnation, the lender could not detennine the borrower's credit
worthiness or repayment ability.

Use ofloan proceeds

        The Loan Authorization Agreement required that the proceeds of the loan be used
for the acquisition of the business C ,€ )<.<./ J and inventory [' EllA J The lender's files
did not contain documentation to verify that the proceeds were used for the purposes
designated by the agreement.

The seller's financial information

        The lender did not validate seller financial infonnation contained in the loan
application. SSA Policy Notice 9000-941 states that the lender is responsible for
ensuring the infonnation submitted by small businesses is credible. In cases where the
financial infonnation to be verified is from the selling business, tax returns are required
for three full years prior to the purchase.

        Financial infonnation furnished with the application should have been verified
with data submitted to the IRS prior to any disbursement of loan proceeds. Instead of
using tax returns, the lender used six months of sales tax filings as a basis for developing
prospective financial statements. The lender stated that the seller was unable to provide
financial data for the location being purchased because he maintained only a consolidated
financial statement for several of his businesses. As a result, the lender did not ensure
that credible data was used in making a detennination as to whether the borrower could
repay the loan.

The lender released SBA from loan guarantee liability

        As a result of our audit, the lender sent a withdrawal of liability letter to the SSA
DallaslFort Worth District Office in September 1999. The lender stated that since some
erroneous decisions had been made with regard to this loan SSA was relieved of its
obligation to honor the $204,866 guarantee (see Appendix A).

                                 RECOMMENDATIONS

We recommend that the Dallas/Fort Worth District Director take the following actions:

IA. 	   Prepare a SSA Fonn 327, "Modification or Administrative Action" to document
        SBA's release from the guarantee for loan number r E' x· Lj J



                                              2
lB. 	 Remind the lender of its obligation to comply with SBA regulations, policies, and
      procedures for originating loans, particularly in the areas of equity injections,
      borrower and seller financial statements, and use of loan proceeds


District Office response

     The District Office is in full agreement with the report. A modification action (SBA
Form 327) was forwarded to Headquarters on 10/29/99 stating that at the lender's request
the loan guarantee for the subject loan was canceled. The lender was reminded of its
obligation to comply with SBA regulations, policies, and procedures for originating loans
in a district office letter dated March 7, 2000 (see Appendix A).

Evaluation of District Office Comments

       The District Director's comments are responsive to our recommendations.

Lender Comments

       The lender agreed not to pursue the guarantee on this loan (see Appendix B).

Evaluation of Lender Comments

       The lender comments are acceptable.




                                           3
                                         U. S. SMALL BUSINESS ADMINISTRATION
                                               DALLASIFORT WORTII D1STR1CI' OFFICE                      Appendix A
                                                4300 AMON CARTER BLYD. SUITE 114 

                                                     FORT WORTH. TEXAS 76155 

                                                         (117684-'$00. (117) 614-5'16 (FAX)




    DATE: 	              March 8, 2000

     FROM: 	             Lavan D. Alexander 

                         District Director 



    TO: 	                Robert G. Seabrooks 

                         Assistant Inspector General 


    SUBJECT: 	           Audit of an Early Defaulted Loan to C          f;'x   Lf    J (Draft) 

                         SBA Loan No. C "/<. 4          1



    The DallaslFt. Worth District Office has reviewed the findings and recommendations set out in the subject draft
    audit report dated March 2, 2000.

    Please be advised that this office is in agreement with these findings. Attached you will find (a) a copy of the 327
    Modification Action that was forwarded to Headquarters on 10120/99; and (b) a copy ofmy letter to the
    Participant (as suggested in your report).

    If you have questions or need add' ional information, you may call me at [ ~ ~ . 6"            :J



      v
     istrict Director
(      f£--I   8   ::J

    Enclosures
                                                         IJ   0   (F                                    Appendix A




                    SBA FORM 327-PipeLine Verlion   (8'971    Dallas/Fort Worth District Office/0610

                                                                                    Heller Financial

                                ]                                                   900 Circle 75 parkway
                                                                                    Atlanta, Georgia 30339

                                                                  October 19, 1999
            DATE,                 :::J        'ITPE:                                              INITIAL DIU. DATE:
I API"""'ED AMOtINT,    300000 . 00           SERVICED BY:          B                             PINAL DISB. DATE,      /   /
    0' ot/AIWITY,      75.000                 """CHASE DATE,            /       /                 TOTAL NIT DIBS.,       $0.00
                                              CLASSIFICATION:
                       04/30/06               DATE TO LIQ.        (IF AP'.I, 06/19/98
                                              DATE CHa. OFF         (IP APPL.I , / /
                              , para.
           vo1untary Termination of Guaranty
           Cance1 SBA's Guaranty Bffective.    10/13/99
           Guaranty Fee in the amount of $6,750.00 was paid to Denver



CAUSE FOR REPORT: Notification from participant bank requesting that SBA cancel the guaranty on subject loan.
COMMENTS: Notification received from participant bank on 10/13/99 requesting SBA cancel our guaranty on subject loan anc
refund guaranty fee.
     ~~~~~~~~~~dl. Per bank's request, cancel ~uaranty on subject loan effective the date of bank notification.
     ,                       for any unused guaranty fee.               r'o                                      \
                                                                        I                 0(;                         J
                                                                        l                                            .
::omments of Counsel




                                                                            [
 :omments:

                                                                        I
                         ) Approve

                                                                        l
                                    U. S. SMALL BUSINESS ADMINISTRATION
                                         DALLASIFT WORTH DISTRICT OFFICE 
                     Appendix A
                                          4300 AMON CARTER BLVD. SUITE 114 

                                                 FTWORTHTX 76JSS 

                                                       117-614Ji'31_'I7.Q4.."16 (FAX)




 March 7,2000


 c      ~)(, Ie        -1
 Deputy General Counsel
 Heller Financial
 900 Circle 75 Parkway, Suite 900
 Atlanta, Georgia 30339

 RE:      [feY. t.t  '1-0IGAuditFindings 

           SBA Loan No ["   E)I, 4         ::J 


 Dear [

 The U. S. Small Business Administration (SBA) Office oflnspector General submitted to this office, its flDdings
 and conclusions from the audit conducted on the subject loan. This audit was conducted in order to determine
 whether early default was caused by lender or borrower non-compliance with SBA requirements. SBA and lender
 loan files were reviewed and district office and lender personnel were interviewed. The audit was conducted
 according to Government Auditing Standards and was accomplished between May 1999 and October 1999.

 Results ofthe audit: Improper Lender Processing Procedures were used in the following categories:

 • 	 Evidence that the Borrower made the equity injection required by the Loan Agreement and Authorization.
 • 	 Lender did not verify information submitted on personal fmancial statements submitted by the borrower.
 • 	 The lender failed to maintain proofoftheir verification that proceeds were used for the purposes designated in
     the Loan Agreement and Authorization.
 • 	 Lender did not validate the financial information submitted by the seller prior to disbursing loan funds.

 SBA would like to take this opportunity to remind Heller Financial of its obligation to comply with SBA
 regulations, policies and procedures for originating loans, particularly in the areas ofequity injection, borrower
 and seller financial statements and the use of loan proceeds.

Should you wish to discuss the above, you may contacte         eX, b         -=::l Acting ADDlED al r Ell, b          "J
c        EX. (p                  ::J As always, your Participation with SBA and its programs is greatly
appreciated.



                                            .-"- ...


lDistri'ct Director
   ~K.~l·'UUU       09:21 817-334-5935               SBA-OFFICE INSPECTOR GENERAl
                                                                                           Appendix B

           Heller Fln.lldai. Inc. 

           900 Circle 76 Pal1cway. Suite 900 

           AUanta, Gwrgl. 30339




•H
           Telephone: (770) 980-6016
           Facsimile: (770) 98().6215



             Heller Financial


           VIA FEDERAL EXPRESS


           March 15, 2000

           Mr. Richard Benton
           U.S. Small Business Administration
           Office of Inspector General
           4300 Amon Carter Blvd., Suite 116
           Fort Worth, TX 76155

           Re: Audit of an Early Defaulted Loan to [.         G)C   4-      ]

           Dear Mr. Benton:

           As we indicated directly to the Dallas office earlier this year, the above referenced loan,
           we had hoped, would be successful. At the time we did the transaction, we felt that this
           store and· l 0: . 4         J operated by a borrower with experience, would be
           successful. Hindsight being.20120, obviously, the loan failed and because we value our
           relationship with the SBA and the local Dallas district, when asked, we agreed not to
           pursue our guaranty.

           I suggest that you add to your report, if possible, just that; that we value our relationship
           with the SBA and each district that we do business and that on this texA J loan, the
           govemment suffered no loss.

           Piease call me if you have any questions.

           Cordially, 

           HELLER FINANCIAL, INC. 



       r
       L
                             cy..t;.

           Deputy General Counsel

       [      G{.fp      1
           Enclo8ure




_. 

..
                                                                                               Appendix C


                                 OFFICE OF INSPECTOR GENERAL

                                   AUDIT REPORT DISTRIBUTION


     Recipient                                                                        Number of Copies

     District Director
      DallaslFort Worth District Office-------------------------------------__________            2

     Deputy Associate Administrator
      Capital Access---------------------------------------_________----------------------         I

     General Counsel------------------------------------____________----------------------        2

     Associate Administrator for
      iPinanciai Assistance~--------------------------- ___________________----------------       I

     Associate Administrator for 

      iPield Operations------------------------------_____________________________________ 


     Office of Chief IPinancial Officers
      Attn: Jeff Brown--------------------------------__________________--------------___         I

     General Accounting Office--------------------------________________________------            1




                                                                                                            I

                                                                                                            I
